            PROMPTNESS AND COMPLETENESS OF
          FYs 2000 AND 2001 DOD PAYMENTS TO THE
      U.S. TREASURY FOR WATER AND SEWER SERVICES
         PROVIDED BY THE DISTRICT OF COLUMBIA


Report No. D-2001-100                   April 13, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
DFAS                  Defense Finance and Accounting Service
WASA                  Water and Sewer Authority
WHS                   Washington Headquarters Services
                       Office of the Inspector General, DoD
Report No. D-2001-100                                                    April 13, 2001
  (Project No. D2001FA-0070.001)

         Promptness and Completeness of FYs 2000 and 2001 DoD
           Payments to the U.S. Treasury for Water and Sewer
              Services Provided by the District of Columbia

                                   Executive Summary

Introduction. This report is the second in a series of quarterly reports and discusses
the promptness and completeness of DoD payments for water and sewer services
provided by the District of Columbia from FY 2000 through the third quarter of
FY 2001. The audit was required by Public Law 106-554, the Consolidated
Appropriations Act of 2001. Public Law 106-554 requires the inspectors general of
each Federal agency to report to the House and Senate Appropriations Committees on
the promptness of each agency’s payments of bills for water and sewer services
received from the District of Columbia. The inspector general reports are to be
submitted to the Committees within 15 days of the end of each quarter.

The District of Columbia Water and Sewer Authority provides both water supply and
wastewater treatment services to Federal agencies and DoD Components within the
National Capital Region. The U.S. Treasury is the collection agent for Federal
agencies and DoD Components’ water and sewer payments, with the U.S. Treasury
submitting a single payment to the Water and Sewer Authority. The DoD Components,
composed of 17 separate installations, sites, and organizations, are required to make
quarterly payments to the U.S. Treasury for the services provided.

Objective. The audit objective was to determine the promptness of quarterly
DoD payments to the U.S. Treasury for water and sewer services provided by the
District of Columbia. This report focuses on the promptness and completeness of DoD
payments for FY 2000 through the third quarter of FY 2001.

Results. DoD Components improved the promptness and completeness of their
payments between FY 2000 and the third quarter of FY 2001. Based on the due dates
stated in the U.S. Treasury bills, the DoD Components’ water and sewer payments
were on average 92 days late in FY 2000. However, in FY 2001, the payments were
only an average of 10 days late. For the payments that were late and not complete, the
reasons are as follows.

     •   DoD Components did not make payments for water and sewer services until
         bills were received and services verified.
     •   DoD Components did not agree with the U.S. Treasury's estimated water and
         sewer bills or that complete payment should be made on those estimated
         amounts.

     •   The U.S. Treasury did not provide the FYs 2000 and 2001 billing letters until
         after the required payment date.

     •   DoD has not established an effective process for paying water and sewer bills
         promptly and completely.

The DoD Components paid $12.7 million, or 42 percent, of the $30.3 million billed in
FY 2000 and $4.1 million, or 66 percent, of the $6.2 million billed through the third
quarter of FY 2001 by the U.S Treasury for water and sewer services provided by the
District of Columbia. In addition, DoD Components were not consistent in their
payment methods. See the Finding section for details.

Management Comments. The Director of Budget and Finance, Washington
Headquarters Services, provided comments to clarify parts of the report. The Director
stated that the U.S. Treasury provides three copies of the same water bills to the
Pentagon, Arlington National Cemetery, and Fort Myer. The U.S. Treasury relies
solely on the individual water users to calculate their bill, which has resulted in
incomplete aggregate payments to the U.S. Treasury. The Director also stated that
Public Law 106-554 allows the Secretary of the Treasury to draw down funds and
provide those funds to the District of Columbia Water and Sewer Authority. However,
the law does not address how this provision is to be applied in cases where the
respective agencies do not receive separate estimates for their individual water and
sewage usage as is the case with the Pentagon, Arlington National Cemetery, and Fort
Myer. The Director stated that the law did not address collections of past due amounts
and how disputes regarding actual past usage are to be resolved and paid. Washington
Headquarters Services has requested the assistance of the District of Columbia Water
and Sewer Authority and the U.S. Treasury in providing an agreeable solution to billing
and collecting from all water users that are provided water through the Virginia meters.
See the Finding section for a discussion of the management comments and the
Management Comments section for a complete text of the management comments.

Audit Response. Based on the comments provided by the Director, we revised the
final report accordingly.




                                           ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objective                                                           2

Finding
     Promptness and Completeness of DoD Payments to the U.S. Treasury    3

Appendixes
     A. Audit Process
         Scope and Methodology                                          15
         Prior Coverage                                                 16
     B. DoD Water and Sewer Authority Customers                         17
     C. FYs 2000 and 2001 Billing and Payment Process                   18
     D. Examples of FYs 2000 and 2001 U.S. Treasury Billing Letters     20
     E. Report Distribution                                             24

Management Comments
     Washington Headquarters Services                                   27
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations Act
    of 2001. Public Law 106-554 requires the inspectors general of each Federal agency
    that receives water and sewer services from the District of Columbia to report to the
    Congressional Appropriations Committees on the promptness of payments within
    15 days of the end of each quarter. This report is the second in a series of quarterly
    reports and discusses the promptness and completeness of DoD payments from
    FY 2000 through the third quarter of FY 2001.

    The District of Columbia Water and Sewer Authority. The District of Columbia
    provides both water supply and wastewater treatment services to Federal agencies and
    DoD Components within the National Capital Region. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and sewer
    services from the District of Columbia, and the District of Columbia was paid with an
    annual lump sum in accordance with the District of Columbia Appropriations Act. The
    District of Columbia Appropriations Act of 1990 (Public Law 101-168) changed the
    payment process by designating the U.S. Treasury as the collection agent for the
    Federal agencies’ water and sewer payments, with the U.S. Treasury remitting a single
    payment to the District of Columbia. In October 1996, the District of Columbia City
    Council transferred water and sewer responsibilities from the Department of Public
    Works to the Water and Sewer Authority (WASA). WASA provides meter readings
    and annual estimated billings to the U.S. Treasury for water and sewer services
    provided to the Federal agencies, including DoD Components. See Appendix B for a
    list of DoD components, composed of 17 separate installations, sites and organizations,
    that received WASA services.

    U.S. Treasury. The U.S. Treasury has the responsibility for paying WASA for water
    and sewer services provided to Federal agencies, including DoD Components. Based
    on meter readings and estimated bills WASA provides to the U.S. Treasury, the
    U.S. Treasury makes quarterly payments to WASA and bills Federal agencies and
    DoD Components annually for their estimated water and sewer usage. The
    DoD Components are required to make quarterly payments to the U.S. Treasury for
    those annual estimated bills. DoD Components make their payments to the
    U.S. Treasury through the Defense Finance and Accounting Service.

    Defense Finance and Accounting Service. The Defense Finance and Accounting
    Service (DFAS) centers provide accounting services, to include making bill payments,
    to DoD Components and other Federal agencies. Specifically, DFAS Indianapolis
    provides financial services to the Army, DFAS Cleveland provides those same services
    to the Navy, and DFAS Omaha provides financial services to the Air Force. The
    DoD Components submit requests for payments of water and sewer services to those
    DFAS centers. The DFAS centers pay the U.S. Treasury either by check or
    electronically in the amount indicated on the request.




                                           1
Objective
    The objective was to determine the promptness of quarterly DoD payments to the
    U.S. Treasury for water and sewer services provided by the Government of the District
    of Columbia. This report focuses on the promptness and completeness of quarterly
    DoD payments for FY 2000 through the third quarter of FY 2001. Appendix A
    discusses the audit scope and methodology and prior audit coverage.




                                          2
           Promptness and Completeness of DoD
           Payments to the U.S. Treasury
           DoD Components improved the promptness and completeness of their payments
           between FY 2000 and the third quarter of FY 2001. DoD Components’ water
           and sewer payments averaged 92 days late in FY 2000 and averaged only
           10 days late in FY 2001 after receipt of the U.S. Treasury bills. However, all
           water and sewer bills were not paid promptly and completely because:

                  •   DoD Components did not make payments for water and sewer
                      services until bills were received and services verified;

                  •   DoD Components did not agree with the U.S. Treasury’s estimated
                      water and sewer bills or that complete payment should be made on
                      those estimated amounts;

                  •   U.S. Treasury did not provide the FY 2000 billing letters until
                      January 28, 2000, or 119 days after the required payment date for the
                      first quarter of FY 2000. For FY 2001, the U.S. Treasury also did
                      not provide the billing letters until January 9, 2001, or 100 days after
                      the required payment date for the first quarter; and

                  •   DoD Components have not established an effective process for
                      ensuring prompt and complete payments for water and sewer
                      services.

           The DoD Components paid $12.7 million, or 42 percent, of the $30.3 million
           billed in FY 2000 and $4.1 million, or 66 percent, of the $6.2 million billed
           through the third quarter of FY 2001 by the U.S Treasury for water and sewer
           services provided by the District of Columbia. In addition, DoD Components
           were not consistent in their payment methods.

Water and Sewer Payment Legislation
    1990 Legislation. Public Law 101-168, the District of Columbia Appropriations Act of
    1990, changed the payment method for Federal agencies’ water and sewer consumption
    within the District of Columbia. Public Law 101-168 shifted responsibility for payment
    of water and sewer bills to the respective Federal agencies. Under Public
    Law 101-168, WASA is required to submit an annual budget to the Office of
    Management and Budget on April 15 of each year that includes an estimate of the cost
    of services for the Federal agencies. WASA also submits the estimated costs in a bill to
    the U.S. Treasury for the Federal agencies within the National Capital Region. The
    U.S. Treasury serves as a collection agent, receiving payments from individual
    agencies for their share of the estimated water and sewer usage, and remitting a single
    payment to the District of Columbia. Funds for water and sewer services come through
    the agencies’ own operating budgets and their respective appropriations bills. The
    Federal agencies are required to make quarterly payments to the U.S. Treasury account
    entitled “Federal Payment for Water and Sewer Services” on the first day of each


                                            3
     quarter. The U.S. Treasury is to pay WASA from this account on the second day of
     each quarter. If there are insufficient funds in the account, the Secretary of the
     Treasury is to make payments from available funds, subject to reimbursement by the
     user agencies.

     2001 Legislation. Public Law 106-554 amended the process used by the Federal
     agencies to make payments to the U.S. Treasury. The U.S. Treasury is now authorized
     and directed to draw down funds from Federal agencies and provide those funds to
     WASA by the second day of each quarter when agencies do not forward timely
     payments of amounts billed by WASA. Public Law 106-554 also directs that the draw
     down apply to current billed amounts and retroactively to past due amounts dating back
     to FY 1990.

Billing Process for Water and Sewer Services
     The billing process defined in Public Law 101-168 requires WASA to submit estimated
     bills for water and sewer usage to the U.S. Treasury for all Federal agencies that are
     based on actual usage in prior years. WASA provides the estimates to the U.S.
     Treasury about 18 months before the beginning of each fiscal year. The U.S. Treasury
     provides those estimates to the DoD Components in detailed bills about 4 months after
     the beginning of the fiscal year. The detailed bills are based on estimates and include
     adjustments for actual water usage that occurred 3 years prior to the current billing
     cycle. DoD Components receiving water and sewer services are listed in Appendix B.
     DoD Components were billed $30.3 million for water and sewer services in FY 2000,
     but they were only billed $6.2 million through the third quarter of FY 2001. The U.S.
     Treasury did not provide an explanation for the significant decrease in the billed
     amounts. See Appendix C for a detailed explanation of the billing process. See
     Appendix D for examples of U.S. Treasury billing letters provided to Bolling Air Force
     Base in the second quarter of FYs 2000 and 2001. The FY 2000 bill contains the
     details for FY 1997 and a general estimate for FY 2001. Similarly, the FY 2001 bill
     contains the FY 1998 details and a general estimate for FY 2002. There was no
     explanation as to why the estimated amount for FY 2000 is $10.5 million and the
     estimated amount for FY 2001 was only $1.4 million when the Air Force only paid
     $0.7 million toward the $10.5 million.

Promptness of Payments
     DoD Components significantly improved the promptness of payments to the
     U.S. Treasury for water and sewer services provided by the District of Columbia for
     FY 2000 through the third quarter of FY 2001. Pubic Law 101-168 requires
     DoD Components to make quarterly payments to the U.S. Treasury by the first day of
     each quarter. Although the U.S. Treasury provided the DoD Components with a
     general estimate for each year about 8 months in advance, the detailed bills did not
     arrive until about 4 months after the beginning of the fiscal year. For example, in
     FY 2000, the U.S. Treasury did not provide the FY 2000 billing letters until
     January 28, 2000, or 119 days after the required payment date for the first quarter of
     FY 2000. Similarly, the U.S. Treasury did not provide the FY 2001 billing letters until
     January 9, 2001, or 100 days after the required payment date for the first quarter of
     FY 2001. The billing letters indicate that the U.S. Treasury is not expecting the first


                                            4
quarter and the second quarter payments until the bills are received. However, based
on Public Law 101-168 and the one line estimate included on the previous year’s bill,
DoD Components’ payments are late if they are not received on the first day of the
quarter. Therefore, those DoD Components that waited for the U.S. Treasury FY 2001
bill before making a payment to the U.S. Treasury were technically already 100 days
late on their first quarter payment. Although technically DoD Components were late,
the U.S. Treasury bills stipulated that the first and second quarter payments were due in
the month the bills were received. In FY 2001, the January 9, 2001, bill showed that
the payment for the first and second quarters was due to the U.S. Treasury on
January 31, 2001. Table 1 shows the average days that DoD Components took to make
payments based on the U.S. Treasury bill due dates and that the average days dropped
significantly from FY 2000 to FY 2001.


                  Table 1. Average Days to Make Payments After
                           U.S. Treasury Bill Due Dates
                                                 FY 20001          FY 20012
 Walter Reed Army Medical Center                     277               0
 Fort McNair                                          69              47
 Navy                                                128               4
 Bolling Air Force Base                               61               8
 Pentagon                                             73               0
 Fort Myer3                                            -               -
 Arlington National Cemetery                           0               0
 National Imagery and Mapping                         38               9
   A
   Average Days Late                                  92              10
   1
       The U.S. Treasury bills were dated January 28, 2000, and stipulated
       that the first payments were due on January 4, 2000 (January 3, 2000
       for the Navy). Therefore, DoD Components were already 24 days
       late when they received the FY 2000 bills.
   2
       Through third quarter of FY 2001.
   3
       Fort Myer discontinued water and sewer service in January 1999 and
       contends that they have credits for prior years, so Fort Myer did not
       make any payments to the U.S. Treasury in FY 2000 or FY 2001.


Although DoD Components improved the promptness of their payments between
FY 2000 and FY 2001, the Components generally deferred payments for water and
sewer bills until bills were received and services were verified.

Walter Reed Army Medical Center. Walter Reed Army Medical Center only made
one payment for FY 2000 for water and sewer services and it was 345 days late


                                           5
because of the lack of personnel to process the payment. Based on the U.S. Treasury
bill due dates, Walter Reed Army Medical Center was 345 days late for the first and
second quarter payment, 255 days late for the third quarter payment, and 164 days late
for the fourth quarter payment. Therefore, the Walter Reed Army Medical Center
FY 2000 payment was an average of 277 days late. During FY 2000, there was no one
in the position to submit timely requests to DFAS for payments to the U.S. Treasury.
In FY 2001, Walter Reed Army Medical Center’s payment for the first and second
quarters was 20 days late and the third quarter payment was 41 days early, according to
the due date provided on the U.S. Treasury billing letter. Therefore, payments through
the third quarter of FY 2001 were an average of zero days late.

Fort McNair. Fort McNair includes the National Defense University Center and the
National War College. In FY 2000, Fort McNair made one payment to the U.S
Treasury because budget requirements allow Fort McNair to make only one payment.
The payments for the first, second, and third quarters were late because Fort McNair
did not make the FY 2000 payment until May 20, 2000. Based on the U.S. Treasury
bill due dates, the FY 2000 first and second quarter payments were 137 days late, the
third quarter payment was 47 days late, and the fourth quarter payment was 44 days
early, for an average of 69 days late for FY 2000. Fort McNair has not made any
payments for FY 2001. Therefore, the first and second quarter payments were 65 days
late and the third quarter payment was 11 days late as of April 13, 2001, for an average
of 47 days late through the third quarter of FY 2001.

Navy. The Navy includes Anacostia Naval Station, Bellevue Naval Housing, Marine
Corps Barracks (8th & I), Naval Observatory, Naval Research Laboratory, Nebraska
Avenue Annex, Potomac Annex, and Washington Navy Yard. The Navy did not make
prompt payments in FY 2000 because the Navy questioned the accuracy of its bills and
was awaiting meter test results from WASA that may have resulted in an adjustment to
the FY 2000 bill. The Navy did not make payments for water and sewer usage in the
first and second quarters of FY 2000 because the Navy was awaiting these results. As
of April 13, 2001, the Navy had not received any data back from WASA regarding this
testing. However, the Navy did make payments in the third and fourth quarters of
FY 2000. Based on the FY 2000 U.S. Treasury bill due dates, the first and second
quarter payments were 169 days late, the third quarter payment of $2.6 million was
78 days late, and the fourth quarter payment of $2.4 million was 94 days late.
Therefore, the FY 2000 payments were an average of 128 days late.

The Navy FY 2001 first and second quarter payments were also late. The Navy made
one payment of $1.1 million for the first and second quarters and one payment of
$0.6 million for the third quarter of FY 2001. Based on the U.S. Treasury bill due
dates, the Navy FY 2001 payment for the first and second quarters was 7 days late and
the third quarter payment was 3 days early. Therefore, payments through the third
quarter of FY 2001 were an average of 4 days late.

Bolling Air Force Base. Bolling Air Force Base (AFB) did not make prompt payments
in FY 2000 because it did not provide pertinent information that DFAS needed to pay
the U.S. Treasury bill. The Air Force financial management personnel representing
Bolling AFB had not previously explained to DFAS that it needed to pay the bill
promptly because the U.S. Treasury bill was not a routine utility bill and was subject to
Public Law 101-168. Based on the U.S. Treasury bill due dates, the Bolling AFB
FY 2000 payment for the first quarter was 16 days late. The payments for the second


                                        6
and third quarters were 58 days late and 81 days late, respectively. Since no payment
was made for the fourth quarter, the payment was 89 days late. Therefore, according
to the U.S. Treasury bill due dates, Bolling AFB payments were an average of 61 days
late in FY 2000.

In FY 2001, the Bolling AFB payment to the U.S. Treasury for the first and second
quarters was 8 days late and the third quarter payment was also 8 days late according to
the due dates on the U.S. Treasury bill. Therefore, payments through the third quarter
of FY 2001 were an average of 8 days late.

Defense Virginia. The Pentagon, Fort Myer, and Arlington National Cemetery are all
users of the shared Federally Owned Water Main. They are collectively referred to in
this report as “Defense Virginia.” Each of these Components pays for its own water
services.
          Pentagon. Washington Headquarters Services (WHS), the component
responsible for the operation of the Pentagon utility systems and for financial payment
for services received, did not make prompt payments to the U.S. Treasury on the
quarterly due dates for FY 2000. Based on the U.S. Treasury bill due dates, WHS
payments were 141 days late for the first and second quarters, 51 days late for the third
quarter, and 40 days early for the fourth quarter, for an average of 73 days late in
FY 2000. The WHS payment for the first and second quarters of FY 2001 was 2 days
late based on the due date in the U.S. Treasury bill, but the third quarter payment was
7 days early. Therefore, WHS payments were an average of zero days late for
FY 2001.

         Fort Myer. Fort Myer did not make any payments in FY 2000 or FY 2001
because they discontinued use of WASA water services in FY 1999 and contend that
they do not owe any money for water usage from the shared meters because they have
prepaid the amounts owed for FYs 1997, 1998 and 1999.

           Arlington National Cemetery. Arlington National Cemetery is a separately
funded Federal entity that has its own appropriation but is administratively supported by
the Department of the Army. Arlington National Cemetery makes one annual payment
instead of quarterly payments. The Cemetery’s financial personnel made a prompt
payment for FY 2000 because the payment was made in FY 1999. However, based on
the U.S. Treasury bill due dates, Arlington National Cemetery’s FY 2001 payment for
the first and second quarters was 20 days late, while the third quarter payment was
41 days early. Therefore, payments through the third quarter of FY 2001 were an
average of zero days late.

National Imagery and Mapping Agency. The National Imagery and Mapping Agency
did not make prompt payments to the U.S. Treasury for FY 2000 through the third
quarter of FY 2001. In FY 2000, National Imagery and Mapping Agency payments for
the first, second, and third quarters were late because the National Imagery and
Mapping Agency only made one payment for FY 2000 on April 19, 2000. Based on
the U.S. Treasury bill due dates, the first and second quarter payments were 106 days
late, the third quarter payment was 16 days late, and the fourth quarter payment was
75 days early, for an average of 38 days late for FY 2000. The National Imagery and
Mapping Agency FY 2001 payment for the first and second quarters was 8 days late,
based on the due date stated in the U.S. Treasury bill. However, the National Imagery


                                        7
    and Mapping Agency did not make a payment for the third quarter of FY 2001 because
    its third and fourth quarter payments are in dispute. As of April 13, 2001, the third
    quarter payment was 11 days late and the payments through the third quarter of
    FY 2001 were an average of 9 days late.

Completeness of Payments
    DoD Components improved in the completeness of payments made between FY 2000
    and the third quarter of FY 2001. The U.S. Treasury billed DoD Components in the
    National Capital Region $30.3 million for water and sewer services for FY 2000. The
    DoD Components made payments of $12.7 million, or 42 percent, for bills received
    during the same period. For FY 2001, U.S. Treasury billed DoD Components
    $6.2 million for water and sewer services and DoD Components made payments of
    $4.1 million, or 66 percent, on bills received during the same period. Tables 2 and 3
    provide summaries of the billing and payment information by DoD Component, for
    FY 2000 and FY 2001, respectively.


                   Table 2. U.S. Treasury Billings and Payments for FY 2000

                               Amount Billed       DoD Payments
                                    by                   to         Amount
                               U.S. Treasury       U.S. Treasury   Outstanding       Percent
                                 (thousands)         (thousands)    (thousands)       Paid
     Walter Reed Army
       Medical Center              $   760              $ 760         $    0           100
     Fort McNair                        28                  28             0           100
     Navy                           13,689               7,760         5,929            57
     Bolling Air Force
       Base                         10,563               3,097         7,466            29
     Pentagon1                       4,466                 225         4,181             6
     Fort Myer1, 2
     Arlington National
       Cemetery1                                             60
     National Imagery
       and Mapping
       Agency                          763                763             0            100
       Total                       $30,269            $12,693       $17,576             42
     1
         Water services billed for the Pentagon, Fort Myer, and Arlington National
         Cemetery are included in the same U.S. Treasury bill.
     2
         Fort Myer did not make any payments in FY 2000 because it discontinued water
         services in January 1999. Fort Myer receives and pays for water services
         provided by Arlington County, Virginia.


                                               8
                      Table 3. U.S. Treasury Billings and Payments
                            for FY 2001 Through 3rd Quarter

                           Amount Billed       DoD Payments
                                by                   to         Amount
                           U.S. Treasury       U.S. Treasury   Outstanding       Percent
                             (thousands)         (thousands)    (thousands)       Paid
 Walter Reed Army
   Medical Center               $ 468               $ 468           $     0         100
 Fort McNair                        22                   0               22           0
 Navy                            1,892               1,681              211          89
 Bolling Air Force
   Base                          1,085               1,085             0            100
 Pentagon1                       1,972                 195         1,712             13
 Fort Myer1, 2
 Arlington National
   Cemetery1                                             65
 National Imagery
   and Mapping
   Agency                          761                598            163             79
   Total                        $6,200             $4,092         $2,108             66
 1
     Water services billed for the Pentagon, Fort Myer, and Arlington National
     Cemetery are included in the same U.S. Treasury bill.
 2
     Fort Myer did not make any payments in FY 2001 because it discontinued water
     services in January 1999. Fort Myer receives and pays for water services provided
     by Arlington County, Virginia.


DoD Components’ water and sewer bills were not fully paid because DoD Components
did not agree with the U.S. Treasury’s estimated water and sewer bills.

Walter Reed Army Medical Center. Walter Reed Army Medical Center payments
for FY 2000 are complete and payments for FY 2001 are complete through the third
quarter.

Fort McNair. Fort McNair makes one payment per year. A complete payment was
made for FY 2000. The voucher for the FY 2001 payment was submitted to DFAS on
February 2, 2001, but, as of April 13, 2001, DFAS had not submitted payment to the
U.S. Treasury.

Navy. The Navy did not make complete payments because the Navy contends that the
U.S. Treasury overstated FYs 2000 and 2001 estimated bills. The Navy FY 2000 bill
was $13.7 million, which included an $8.6 million estimate for FY 2000 and


                                           9
$4.6 million of adjustments and rate increases for FYs 1997 through 1999. The Navy
FY 2000 budget included $5 million for water and sewer usage, which was based on
the Navy’s historical usage and adjusted for inflation. The Navy only paid $5 million
of the $8.6 million because it contends that the U.S. Treasury estimate was too high
and the Navy cannot pay more than its budgeted amount without a bill based on actual
usage. However, the Navy made additional payments for prior year adjustments that
were based on actual usage totaling $2.8 million, so total payments to the U.S.
Treasury in FY 2000 were $7.8 million.

In FY 2001, the U.S. Treasury provided the Navy with an estimated bill of
$2.5 million, which included an FY 1998 usage adjustment of $0.3 million. However,
the Navy payments for the first, second and third quarters of FY 2001 were based only
on the estimated amount of $2.2 million because Navy records indicated that the Navy
had already paid more than the adjusted FY 1998 actual usage that was stated on the
FY 2001 bill. Specifically, the FY 2001 bill states that the Navy’s cost for actual water
and sewer usage for FY 1998 was $6.7 million and, according to the Navy payment
records, the Navy has paid $6.9 million, including a payment of $1.1 million in
FY 2000 for the deferred rate increase. Since the Navy payment records show that the
Navy should have a credit based on the FY 1998 actual usage, the Navy does not plan
to pay the FY 1998 adjustment included in the FY 2001 U.S. Treasury bill.

Bolling Air Force Base. Bolling AFB did not make complete payments because they
did not agree with the U.S. Treasury estimates and as a result did not include the U.S.
Treasury estimated amounts in the Air Force budget. Bolling AFB budget amounts for
the water services are based on actual consumption from the prior year with an inflation
factor and adjusted for additional buildings that are going to come on line or for
existing buildings that will be taken out of service during the year. Bolling AFB budget
personnel stated that the estimates provided by the U.S. Treasury are not realistic and
do not fully explain how the estimated amounts were determined.

In FY 2000 the U.S. Treasury billed Bolling AFB a total of $10.6 million for the
WASA bill. Bolling AFB financial management personnel only paid a total of
$0.7 million in FY 2000. Bolling AFB financial management personnel did not pay the
complete amounts because the civil engineers read the water meters on Bolling AFB
and paid the amount that was consumed based on current meter readings. However, in
April 2001, Bolling AFB financial management personnel made payments of
$0.9 million for the FY 1997 adjustment that was originally included on the FY 2000
bill and $1.5 million for other prior year amounts included on the FY 2000 bill, leaving
an unpaid amount of $7.5 million for FY 2000.

Through the third quarter of FY 2001, the U.S. Treasury has billed Bolling AFB
$1.1 million for water and sewer services. Payments through the third quarter of
FY 2001 are complete because Bolling AFB paid $0.7 million for the first and second
quarters and $0.4 million for the third quarter. In March 2001, Air Force personnel
informed us that the Air Force plans to pay all outstanding U.S. Treasury bills for
Bolling AFB. The Air Force intends to pay and will dispute unverified amounts at a
later date.




                                       10
Defense Virginia. The Defense Virginia Components did not make complete payments
of $4.5 million that the U.S. Treasury billed in FY 2000 and $2 million billed in
FY 2001. The three Defense Components contend that the water bills provided by the
U.S. Treasury were not based on actual or accurate usage.

The U.S. Treasury bills for Defense Virginia are based on WASA readings of two
water meters to measure the water shared among three DoD installations (the Pentagon,
Fort Myer, and Arlington National Cemetery) and two non-DoD entities (Ronald
Reagan National Airport and the National Park Service). The U.S. Treasury sent the
same meter readings and billing information to all of these users with the expectation
that the Defense Virginia Components could work out the allocation of the billed
amounts. Based on discussion with WASA, we determined that the U.S. Treasury
FY 2000 and FY 2001 estimated bills for the three DoD installations inappropriately
included water usage for the National Park Service and Ronald Reagan National
Airport. We also determined that even if these non-DoD facilities were excluded from
Defense Virginia shared meters billings, DoD would not have made complete payments
because each component used a different method to compute their share of the bill.

       Pentagon. WHS estimates the Pentagon water usage based on sewer readings,
which is approximately $215,000 a year. WHS paid $225,000 for FY 2000 and
$195,000 for a partial payment for FY 2001. Since WHS paid only $420,000 for
FY 2000 and FY 2001 for their portion of the Virginia shared meter, this resulted in an
underpayment of the $4.5 million and $2 million that the U.S. Treasury billed for the
Virginia shared meters for FYs 2000 and 2001, respectively.

In March 2001, WHS completed the installation of 19 water meters around the
Pentagon. WHS intends to use readings from the new water meters to provide the
U.S. Treasury with a basis for allocating water usage to the DoD Components that
share the financial responsibility for payment of the water services provided through the
Virginia shared meters. In addition, WHS plans to use this data to estimate prior year
water usage and billing information, to include development of a methodology to
calculate the DoD and non-DoD amounts in arrears. In the future, we plan to review
this methodology and its application in more detail.

        Fort Myer. Prior to January 1999, Fort Myer used their own meter readings to
determine their portion of the water usage from the Virginia shared meter. The pumps
that supply water from the shared meters stopped working in January 1999, so Fort
Myer began using water supplied by Arlington County at this time. The U.S. Treasury
requires that it be notified if a user of water services changes to another supplier of
water. However, Fort Myer did not notify the U.S. Treasury of the change to
Arlington County water until January 31, 2001. For FYs 2000 and 2001, Fort Myer
did not make any payments to the U.S. Treasury and contends that they do not owe any
money for water usage from the shared meters because Fort Myer no longer uses water
supplied from WASA. Fort Myer budget personnel contend they have prepaid amounts
owed for FYs 1997, 1998 and 1999; however, Fort Myer has not provided adequate
support for the prepaid amounts. In FY 2000, Fort Myer paid Arlington County
approximately $516,000 for water and sewer services; however, Fort Myer prior years’
payments to the U.S. Treasury averaged $274,000.

       Arlington National Cemetery. Arlington National Cemetery estimates their
water usage based on the number of people that visit the cemetery each year, which is


                                       11
    included in their budget. Arlington National Cemetery did not make complete
    payments because it did not include the U.S. Treasury estimated bill amounts in the
    Cemetery’s budget. The Cemetery made a FY 2000 payment in FY 1999 for $60,000
    and a FY 2001 payment of $65,000 in 2001. Since the Cemetery only paid $60,000 for

    FY 2000 and $65,000 for FY 2001 for their portion of the Virginia shared meter, this
    resulted in an underpayment of the $4.5 million and $2 million that the U.S. Treasury
    billed for the Virginia shared meters for FYs 2000 and 2001, respectively.

    As a result, WHS and Arlington National Cemetery paid $285,000 in FY 2000 and
    $260,000 in FY 2001 for water usage from the Virginia shared meters; Fort Myer did
    not pay anything in FY 2000 or FY 2001. However, the U.S. Treasury billed
    $4.5 million for FY 2000 and $2.0 million for the first three quarters of FY 2001 for
    the Virginia shared meters. The effect is an underpayment to the U.S. Treasury of
    $4.2 million and $1.7 million for FY 2000 and the first three quarters of FY 2001,
    respectively.

    National Imagery and Mapping Agency. The National Imagery and Mapping Agency
    has made complete payments for FY 2000 and the first and second quarters of
    FY 2001, but the remaining payments for amounts due in FY 2001 are under dispute.
    The FY 2001 bill from the U.S. Treasury was 57 percent more than the FY 2000 bill.
    As a result, the National Imagery and Mapping Agency is verifying the water
    consumption and estimates before submitting payment for the amount due on the
    U.S. Treasury bill.

Summary
    For FY 2000 through the third quarter of FY 2001, DoD Components have improved
    the promptness and completeness of their payments. Based on the due dates stated in
    the U.S. Treasury bills, DoD Components’ payments averaged 92 days late in FY 2000
    and only averaged 10 days late in FY 2001. Although timeliness has improved and the
    DoD Components increased the amount of their payments from 42 percent of the bills
    in FY 2000 to 66 percent of the bills in FY 2001, they have not paid approximately
    $19.7 million to the U.S. Treasury for water and sewer services. DoD believes that it
    is fulfilling a fiscal responsibility to pay only for services received and DoD
    Components are making more timely payments after they receive the U.S. Treasury
    bills. DoD has substantial disagreements that are still unresolved based on the accuracy
    of the estimates and timeliness of the bills. The DoD Components’ obligation to make
    prompt and complete quarterly payments based on the estimates provided by the
    U.S. Treasury is not always consistent with DoD’s requirement to conform to
    prescribed fiscal laws governing payment for services received.

Management Comments on the Finding and Audit Response
    Management Comments. The Director of Budget and Finance, Washington
    Headquarters Services, provided comments to help clarify the report. The Director
    stated that the U.S. Treasury provides three copies of the same water bills to the
    Pentagon, Arlington National Cemetery, and Fort Myer. The U.S. Treasury relies
    solely on the individual water users to calculate their bill, which has resulted in


                                           12
incomplete aggregate payments to the U.S. Treasury. The Director also stated that
Public Law 106-554 allows the Secretary of the Treasury to draw down funds and
provide those funds to the District of Columbia Water and Sewer Authority. However,
the law does not address how this provision is to be applied in cases where the
respective agencies do not receive separate estimates for their individual water and
sewage usage, as is the case with the Pentagon, Arlington National Cemetery, and
Fort Myer. The Director stated that the law did not address collections of past due
amounts and how disputes regarding actual past usage are to be resolved and paid.
Washington Headquarters Services has requested the assistance of the District of
Columbia Water and Sewer Authority and the U.S. Treasury in providing an agreeable
solution to billing and collecting from all water users that are provided water through
the Virginia meters. The complete text of the comments is in the Management
Comments section of the report.

Audit Response. The Director of Budget and Finance, Washington Headquarters
Services, provided technical comments to clarify some issues addressed in the report.
Based on the comments provided, we revised the final report accordingly.




                                       13
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD Components’ billing and payment information
    from FY 2000 through the third quarter of FY 2001 for water and sewer services
    provided by WASA. Specifically, we reviewed the U.S. Treasury billing and payment
    information for DoD Components from FYs 2000 through 2001, including checks from
    several DFAS centers. We reviewed bills received by DoD Components from the
    U.S. Treasury to establish the amounts billed for water and sewer services. We also
    reviewed DoD disbursement vouchers submitted to the U.S. Treasury from FY 2000
    through the third quarter of FY 2001, to determine the amounts paid by
    DoD Components. For the period, we obtained available water and sewer service bills
    from the U.S. Treasury totaling $36.5 million and DoD payments made to the
    U.S. Treasury totaling $16.8 million. We did not rely on computer-processed data for
    our review of billing and payment data from DoD Components. See Appendix B for a
    list of the DoD Components receiving water and sewer services from WASA.

    DoD-Wide Corporate Level Government Performance and Results Act Goals. In
    response to the Government Performance and Results Act, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance goals,
    and performance measures. This report pertains to achievement of the following
    corporate-level goal and subordinate performance goal:

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain future by
               pursuing a focused modernization effort that maintains U.S. qualitative
               superiority in key warfighting capabilities. Transform the force by
               exploiting the Revolution in Military Affairs, and reengineer the Department
               to achieve a 21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
               information management. (01-DoD-2.5)

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in the DoD. This report provides coverage of the
    Financial Management high-risk area.

    Audit Period and Standards. We performed this financial-related audit from
    February through April 2001 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector General,
    DoD.

    Management Controls. The audit was required by statute; therefore, we did not
    review the management control program.




                                           15
     Contacts During the Audit. We visited or contacted individuals and organizations
     within the DoD and within the Department of the Treasury, the U.S. General
     Accounting Office, and the District of Columbia Water and Sewer Authority. Further
     details are available upon request.

Prior Coverage

Inspector General, DoD
        Inspector General, DoD, Report No. D-2001-053, “DoD Payments to the U.S.
        Treasury for Water and Sewer Services Provided by the District of Columbia,”
        February 15, 2001




                                          16
Appendix B. DoD Water and Sewer Authority
            Customers
   According to the District of Columbia Water and Sewer Authority, the list below
   identifies the DoD Components for which the Water and Sewer Authority provides
   estimated bills to the U.S. Treasury for water and sewer services for FYs 2000 and
   2001.


   Army
    Arlington Cemetery
    Fort McNair
    Fort Myer
    Walter Reed Army Medical Center

   Navy
    Anacostia Naval Station
    Bellevue Naval Housing
    Marine Corps Barracks, 8th & I
    Naval Observatory
    Naval Research Laboratory
    Nebraska Avenue Annex
    Potomac Annex
    Washington Navy Yard

   Air Force
    Bolling Air Force Base

   Other Defense Organizations
    National Defense University Center
    National Imagery and Mapping Agency
    National War College
    Washington Headquarters Services




                                         17
Appendix C. FYs 2000 and 2001 Billing and Payment
            Process
   WASA provides meter readings and annual estimated bills to the U.S. Treasury for
   water and sewer services for Federal agencies and DoD Components within the
   National Capital Region. Based on the information the U.S. Treasury receives from
   WASA, the U.S. Treasury prepares bills for the Federal agencies and
   DoD Components. Generally, in the second quarter of each fiscal year,
   DoD Components receive annual bills from the U.S. Treasury that show the estimated
   bill for the fiscal year, including adjustments based on actual usage from 3 years prior,
   and the quarterly payments due for the second, third, and fourth quarters. To illustrate,
   on April 15, 1998, WASA prepared a bill that contained an estimate of anticipated
   water and sewer usage that was submitted to the Office of Management and Budget for
   use in the FY 2000 President’s Budget. The bill included adjustments for actual water
   and sewer usage variances in FY 1997. The bill was sent to the U.S. Treasury for
   distribution to the Federal agencies and DoD Components.

   The U.S. Treasury bills each agency based on estimates the U.S. Treasury receives
   from WASA. An example of a WASA-generated estimate is included in Appendix D,
   which includes copies of the FYs 2000 and 2001 U.S. Treasury bills sent to
   Bolling AFB, Washington, D.C. The FY 2000 bill, dated January 28, 2000, states that
   Bolling AFB owes an estimate of $10.56 million for FY 2000, with an initial payment
   due on January 4, 2000. This FY 2000 bill estimate of $10.56 million includes an
   FY 1997 actual usage variance of $2.01 million, an unbilled amount for FY 1999
   estimated usage of $4.71 million, and an FY 2000 estimated amount of $3.84 million;
   and an FY 2001 estimate of $1.28 million. Similarly, the FY 2001 bill contains the
   1998 details and a general estimate for FY 2002. There is no explanation as to why the
   estimated amount for FY 2000 is $10.5 million and the estimated amount for FY 2001
   was only $1.4 million when the Air Force only paid $0.7 million toward the
   $10.5 million. These bills demonstrate the 3-year lag between estimated and actual
   amounts billed. Also, these bills are indicative of the difficulties encountered with the
   billing process for estimated water and sewer services.




                                          18
                                                       A pril 15, 1998 estimated
           W ater and                                  bill sent to Office of                         Office of
             Sew er                                    M anagement and Budget                        M anagement
           A uthority                                  based on F Y 1997 actual                      and B udget
                                                       usage.




F Y 2000 estimated bill                                                                       One-fourth pay ment of
sent, including adjustm ent                                                                   the F Y 2000 es timate
for 1997 actual usage.                                                                        sent on s econd day of
                                                                                              each quarter.




                                                      United S tates
                                                       Treasury




F Y 2000 estimated                                                                         One-fourth pay ment
bills sent, including                                                                      for F Y 2000 sent on
adjustm ent for 1997                                                                       first day of each
actual us age.                                                                             quarter.



                                                               17 DoD Com ponents:
                        1)   A nacostia Nav al Station                  10) National W ar College
                        2)   A rlington National Cem etery              11) Nav al Observ atory
                        3)   B ellevue Nav al Housing                   12) Nav al R esearch L aboratory
                        4)   B olling A ir F orce Base                  13) Nebraska A v enue A nnex
                        5)   F ort M cNair                              14) Potomac A nnex
                        6)   F ort M y er                               15) W alter R eed A rmy M edical Center
                        7)   M arine Corps Barracks (8th & I)           16) W ashington Headquarters Serv ices
                        8)   National Defense Univ ersity Center        17) W ashington Nav y Y ard
                        9)   National Imagery and M apping S ervice




                                                         19
Appendix D. Examples of FYs 2000 and 2001
            U.S. Treasury Billing Letters




                       20
21
22
23
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Defense Organizations
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury




                                           24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         25
Washington Headquarters Services Comments




                     27
Final Report
 Reference




Revised



Revised




Revised
Page 11




Revised




Revised




               28
29
Audit Team Members


The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

 F. Jay Lane
 Salvatore D. Guli
 Charles J. Richardson
 Ronald W. Hodges
 Adrienne B. Brown
 Michael L. Davitt
 Lorin T. Pfeil
 Robert P. Goldberg
 Charles A. Mordecai
 Yalonda N. Blizzard
 Nicole M. Ellis
 Robert T. Goodwin
 Monica L. Noell
 Lisa C. Rose-Presley
